IN THE SUPREME COURT OF THE UNITED STATES
LAWYERS' COMMITTEE FOR 9/11 INQUIRY, INC., ET
AL.
Petitioner
vs.

No:

21-0093

CHRISTOPHER A. WRAY, DIRECTOR, FEDERAL
BUREAU OF INVESTIGATION, ET AL.
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

BRIAN H. FLETCHER
Acting Solicitor General
Counsel of Record
August 23, 2021
cc:
MICK G. HARRISON
520 S. WALNUT STREET
SUITE 1147
BLOOMINGTON, IN 47402
JOHN MICHAEL CLIFFORD
CLIFFORD & GARDE LLP
815 BLACK LIVES MATTER PLAZA,
NW
#4082
WASHINGTON, DC 20006

